       OFFICE OF INSPECTOR GENERAL




              EVALUATION OF THE
   U.S. INTERNATIONAL TRADE COMMISSION’S
FISCAL YEAR 2006 NETWORK SECURITY CONTROLS


              AUDIT REPORT
               OIG-AR-03-07




                               June 5, 2007
        UNITED STATES INTERNATIONAL TRADE COMMISSION
                         OFFICE OF INSPECTOR GENERAL
                               WASHINGTON, DC 20436
June 5, 2007                                                                 OIG-EE-017


MEMORANDUM

TO:            THE COMMISSION

FROM:          Assistant Inspector General for Audit


SUBJECT:       Evaluation of the U.S. International Trade Commission’s Fiscal Year
               2006 Network Security Controls (OIG-AR-03-07)

This report presents the results of our evaluation of the Commission’s network security
controls. Specifically, we determined whether the Commission implemented corrective
actions in regards to technical security issues identified in OIG audit report OIG-AR-04-
05, Evaluation of the U.S. International Trade Commission’s Fiscal Year 2005
Information Security Program and Practices.

This audit found the Commission made progress in strengthening its network security
controls during Fiscal Year 2006, but further action is needed. We encourage
management to continue to address the security issues associated with the network,
Windows operating system, firewall, and router.

We made four recommendations that will assist the Commission in strengthening its
network security. The Commission agreed with our recommendations and has initiated
and planned actions to address the recommendations.

Due to the sensitive nature of the information contained in our report, we have limited
distribution of the report.
